No. 20-812
LISA M. FOLAJTAR,
Petitioner,
v.
JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief of the
Cato Institute, Reason Foundation, Individual Rights Foundation, and
Independence Institute as Amici Curiae in Support of Petitioner contains
5,040 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

/s/ Ilya Shapiro
Counsel of Record

